                               SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-09A                                   Office of Inspections                                     March 2014




                    Inspection of

          Embassy Bridgetown, Barbados, and

            Embassy St. George’s, Grenada





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY

                           OF THE INSPECTION


        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •	 Policy Implementation: whether policy goals and objectives are being effectively
      achieved; whether U.S. interests are being accurately and effectively represented; and
      whether all elements of an office or mission are being adequately coordinated.

   •	 Resource Management: whether resources are being used and managed with maximum
      efficiency, effectiveness, and economy and whether financial transactions and accounts
      are properly conducted, maintained, and reported.

   •	 Management Controls: whether the administration of activities and operations meets the
      requirements of applicable laws and regulations; whether internal management controls
      have been instituted to ensure quality of performance and reduce the likelihood of
      mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
      steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                           1

Context                                                 2

Executive Direction                                     3

  Strategic Direction and Coordination                  3

  Morale and Workplace Issues                           4

  Leadership and Management                             5

  Mentoring and First- and Second-Tour Officers         6

  Contact Management Database System                    6

Policy and Program Implementation                       7

  Reporting and Advocacy                                7

  Law Enforcement                                       7

  Leahy Vetting                                         8

  Public Diplomacy                                      8

  Press and Information                                 9

  Social Media                                          9

  Information Resource Center                           9

  American Corners                                     10

  Cultural and Exchange Programs                       10

  Public Diplomacy Grants and Section Administration   10

  Consular Affairs                                     10

  Leadership and Supervision                           11

  Consular Facilities                                  11

  Consular Automated Equipment                         13

  Supervision of Consular Agencies                     13

  Consular Agency Antigua                              13

  Consular Agency Martinique                           14

  Embassy St. George’s                                 15

  Crisis Management Planning                           15

  Visa Referral Policy                                 16

  Consular Management Controls                         16

Resource Management                                    18

  Management Overview                                  19

  Financial Management                                 20

  Human Resources                                      21

  General Services Office                              22

  Facilities Management                                25

  Information Management                               26

Quality of Life                                        30

Management Controls                                    32

List of Recommendations                                34

List of Informal Recommendations                       37

Principal Officials                                    40

Abbreviations                                          41




                                     iii

                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Key Judgments

•	 The Ambassador must address his leadership issues regarding his strategic vision, favoritism,
   team building, proper delegation, and overbearing treatment of some employees.

•	 Embassy Bridgetown’s emergency preparedness program lacks direction and focus. The
   embassy has not exercised the safe areas and alternate command center to determine their
   adequacy. Embassy personnel are unaware of their roles and responsibilities in the event of
   an emergency.

•	 The consular section services U.S. citizens spread over seven countries and numerous
   islands. Consular managers should exercise closer supervision over consular operations in
   Bridgetown and at the consular agencies in Antigua and Martinique.

•	 Embassy Bridgetown’s consular section needs to improve crisis management planning and
   coordination with consular agents, wardens, and U.S. citizen residents in this hurricane prone
   region.

•	 The management section delivers good customer service; however, the section needs to
   address several management control issues.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 3 and October 17, 2013, and
in Bridgetown, Barbados, between October 20 and November 4, 2013. The overseas portion of
the inspection was truncated due to the partial Federal Government shutdown. Ambassador
Pamela Smith (team leader), Lavon Sajona (deputy team leader), Paul Cantrell, Eric Chavera,
Mark Jacobs, John Philibin, Iris Rosenfeld, Scott Thayer, and Steven White conducted the
inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Context 

        Barbados is the largest of the seven island nations of the Lesser Antilles to which the
embassy is accredited. The others are the Federation of Saint Kitts and Nevis, Antigua and
Barbuda, St. Vincent and the Grenadines, Dominica, St. Lucia, and Grenada, which has a small
U.S. embassy whose existence is rooted in the 1983 ouster of Cuban troops by American military
forces.

        All seven governments are democratic, though not without challenges due, in part, to
their generally weak economies. The rule of law is reasonably strong, with occasional lapses on
some of the islands. Respect for human rights is widespread, and literacy is high. The islands’
importance to the United States derives from their location. Despite strong British colonial
heritage, the islands’ proximity ensures their continued engagement with the United States.
Immigration, trade and investment, and narcotics trafficking are perennial issues in the bilateral
relationships.

        Embassy Bridgetown’s signal challenge is the difficulty of adequately engaging its
interlocutors on seven geographically dispersed islands. Travel costs are high, and air transport
can be unreliable. Government representatives and others on the islands complain of U.S.
neglect. The situation is further complicated because some agencies at the mission deal with
islands other than the seven islands to which the embassy is accredited.

        The mission includes 81 U.S. direct-hire positions representing 8 agencies, including the
Departments of State, Justice, Homeland Security, Defense, and Health and Human Services, as
well as the U.S. Agency for International Development and the Internal Revenue Service. Two-
thirds of the officers, including nine section and agency heads, turned over in summer 2013.
Ninety Peace Corps volunteers are assigned to Dominica, Grenada, St. Lucia, and St. Vincent.
Peace Corp operations in Antigua and Barbuda and in St. Kitts and Nevis ceased at the beginning
of 2013 because of budget cutbacks. Embassy expenditures in FY 2013 totaled $46.5 million.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Executive Direction

        Embassy Bridgetown maintains productive relations with the seven governments to
which it is accredited. The Ambassador works hard and travels often in the region to build
personal rapport with leaders and advance U.S. interests. Many agency and section heads praise
the Ambassador for this contact work, citing instances when his intervention turned their
programs around. For example, the Ambassador persuaded leaders in two countries to take
decisive action against criminal or potentially terrorist elements. He also made the key difference
in launching stalled construction of a facility necessary to advance the embassy’s fight against
HIV/AIDS. The deputy chief of mission (DCM), acting as chargé for 11 months before the
Ambassador’s arrival, also forged effective contacts in the host countries.

        Interagency cooperation not only runs smoothly at the mission but also represents an
achievement for which the Ambassador and DCM can both take credit. Prior to their arrival,
internal frictions hampered embassy operations. The current leadership made a point of resolving
conflicts and instilling an atmosphere of constructive engagement among the agencies
represented at the mission.

        The Ambassador and DCM also make a priority of fostering a family-friendly work
environment, an attitude appreciated by American employees with families and the locally
employed (LE) staff. Similarly, American and local employees make an effort to bridge the
cultural divide. However, morale at Embassy Bridgetown suffers because of isolation and
expense, issues that embassy leadership cannot change.

      The Department rates Barbados high for crime threat, and the Ambassador and DCM
emphasize security and support the strengthening of the security posture to ensure that
employees are safe.

Strategic Direction and Coordination

        Not enough of Embassy Bridgetown’s new employees grasp or can articulate the
Ambassador’s overall strategic vision. Each of the seven island nations the embassy covers has
different reasons to be of interest to the United States, and each of the eight agencies housed in
the embassy works in different and often larger territories than those to which the Ambassador is
accredited. Because these circumstances are so complex, embassy activities can seem like a
collection of loosely related programs untethered to the overriding purposes of the United States
in the region. Absent consistent, repeated focus on those purposes, even embassy leadership
jumps from project to project. The Ambassador and DCM pledged to communicate more clearly
and often with the entire embassy community about major priorities.

        Embassy Bridgetown’s two principal planning documents, the Mission Resource Request
and the Integrated Country Strategy, use different terminology but identify essentially the same
priorities. The Ambassador has authorized a working group to revise the Integrated Country
Strategy to incorporate economic issues and public diplomacy more thoroughly. Section and
agency heads collaborate effectively on many priorities, including law enforcement, security,
development assistance, HIV/AIDS prevention, and climate-change amelioration.


                                        3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Morale and Workplace Issues

         Many staff members believe the Ambassador shows undue favoritism toward a member
of his front office staff. The Ambassador’s and the DCM’s low scores on inspection
questionnaires, corroborated by personal interviews, reflect this view. For example, many
employees expressed that the Ambassador had empowered the staff member–whose conduct is
widely perceived as inappropriately demanding, non-collegial, and unprofessional–to speak for
him. In addition, the Ambassador allowed the staff member to take over duties more
appropriately conducted by the DCM or other senior officers. Employees cited numerous
examples of the employee’s inability to carry out basic duties. The staff consumes unnecessary
time discussing this issue, which has become a distraction from the embassy’s central mission.

        Neither the Ambassador nor the staff member were aware that these pervasive
perceptions existed, had damaged morale, and cast the front office in an unfavorable light. The
Ambassador must reverse this perception of favoritism. The chief of mission, per 3 FAH-2 H­
121.7, 3 FAH-2 H-124.2, and 2 FAM 113.1 C (2), has full responsibility for the direction,
coordination, and supervision of all U.S. Government Executive Branch employees in the
countries to which he is accredited.

         Among the conditions that have led to this untenable situation are poor implementation of
normal front office procedures, a failure of the staff member’s work requirements to align with
actual and appropriate duties, and a lack of clarity as to the responsibilities of front office
personnel. A thorough review and operational realignment of duties among front office staff
could resolve many of these issues and improve internal functions. Clearly articulating the results
of that review to all mission employees is an essential step in the process.

Recommendation 1: Embassy Bridgetown should take administrative action, including formal
counseling for the front office staff member, to address the problems arising from favoritism.
(Action: Embassy Bridgetown)

Recommendation 2: Embassy Bridgetown should conduct a review of executive office
procedures and front office staff work requirements and responsibilities, use the results to realign
duties in the front office, and communicate that realignment to the embassy community. (Action:
Embassy Bridgetown)

Recommendation 3: Embassy Bridgetown should assess the skill level of the Ambassador’s
front office staff member and provide training as needed. (Action: Embassy Bridgetown)

        Embassy Bridgetown’s staff is divided. Staff referred continuously to the “old team,” the
new “Team Palmer,” and the “A Team.” Employees from the “old team,” many of whom
departed the embassy in summer 2013, were at odds with the Ambassador, who is perceived to
value new arrivals over them. The sudden death of a widely admired American colleague on the
eve of the Ambassador’s arrival also split the embassy community into two groups: those who
experienced the trauma and those who came after it. Although the Ambassador and the DCM get
along well, the division of labor and leadership styles between them has not produced the
collaboration of a true partnership.


                                        4
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

           Relatively low scores on inspection questionnaires and comments made during OIG
   interviews indicate the embassy staff believes the Ambassador and the DCM are not exercising
   effective leadership. The OIG team suggested an off-site team-building exercise to help unite
   employees and embrace strategic priorities. The Ambassador and the DCM accepted this
   suggestion.

   Leadership and Management

            The Ambassador involves himself in administrative matters that he should delegate to the
   management officer or DCM. For example, until midpoint of the inspection, he personally
   approved all official travel. He sometimes calls entry-level American officers and LE staff to his
   office without their supervisors, often when he is dissatisfied with their work. These interactions
   should be delegated to supervisors or the DCM. The Ambassador also holds some decisions until
   the last moment or reverses his decisions, upending plans.

           During the course of the inspection, the Ambassador agreed to delegate much more of the
   management portfolio, refrain from direct meetings with entry-level and LE staff, and meet twice
   weekly with the DCM to resolve all pending decisions. The Ambassador also gave each
   Department section head authority to approve travel requests, within the parameters of quarterly
   travel plans that the Ambassador approves. Delegation of administrative work and interpersonal
   matters will enable to Ambassador to devote more time to policy advocacy.

           Most employees find the Ambassador’s leadership style inspiring, but some staff
   expressed that it is overbearing and inhibits their performance. The Ambassador did not realize
   he needed to modulate his behavior for different staff members until the inspectors pointed it out
   to him. He admitted that a few times he had lost his temper and reprimanded employees in front
   of others, which led some employees to feel intimidated and to fear retribution. The OIG team
   found no evidence of actual threats or retribution. The Ambassador stated that he harbored no
   intention to intimidate and was surprised to learn that some colleagues felt as they do. He
   accepted a packet of Department guidance, pertinent articles, and the inspectors’ advice about
   intimidation. He also agreed with the inspection team’s suggestion to turn to his DCM more
   frequently to address problematic issues.
[Redacted] (b) (6)




           Prior to the inspection, the Assistant Secretary of the Bureau of Western Hemisphere
   Affairs (WHA) was aware of some of the leadership issues covered in this report. More active
   engagement from WHA will solidify progress that embassy leadership pledged to make in
   addressing these shortcomings. The Foreign Affairs Manual (1 FAM 112 [3]) enjoins assistant
   secretaries of the regional bureaus to actively support chiefs of mission in carrying out their
   official duty to implement U.S. foreign policy and lead their missions effectively.”




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 4: The Bureau of Western Hemisphere Affairs should send a senior official
to Embassy Bridgetown to assess progress by the Ambassador and deputy chief of mission in
resolving leadership shortcomings. (Action: WHA)

       The Ambassador has not received an employee evaluation report prepared by a
Department official since 2005. For subsequent years the Ambassador was assigned to an
independent U.S. Government agency or filled temporary Department assignments. While the
Ambassador is not required to receive a rating in the 2 years prior to his retirement, the WHA
Assistant Secretary may prepare a rating at her discretion. This would be a useful tool to monitor
and provide feedback on the Ambassador’s progress in correcting leadership weaknesses.

Recommendation 5: The Bureau of Western Hemisphere Affairs should prepare an employee
evaluation report for the Embassy Bridgetown Ambassador. (Action: WHA).

Mentoring and First- and Second-Tour Officers

        The DCM oversees a development program for first- and second-tour (FAST) officers. A
FAST officer acts as coordinator. The group typically meets monthly. Some FAST officers
expressed satisfaction with the program, appreciating the chance to learn from section chiefs and
others who have spoken to the group. Others expressed a desire for more opportunities to gain
work experience outside the consular section. One rotational slot exists in the embassy, and there
are few regular opportunities for FAST officers to rotate in other sections or gain experience
doing public speaking, visit support, reporting, and other elements of tradecraft needed for career
development. The OIG team left resource documents with the FAST coordinator that will be of
use strengthening the program.

Contact Management Database System

        The embassy has partially adopted a Department-developed Contact Management
Database, which has not been embraced by embassy staff. Each section maintains independent
contact lists, and the main database must be repeatedly updated when major needs, such as the
July 4 reception and holidays, arise.

       Informal Recommendation 1: Embassy Bridgetown should integrate the use of the
       Contact Management Database throughout the mission. (Action: Embassy Bridgetown)




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Policy and Program Implementation
Reporting and Advocacy

        A combined political/economic section reports on issues in the seven countries to which
the Ambassador is accredited, but the high cost of travel, unreliable transportation, and limited
lodging compound the challenge of covering a vast geographic area. Despite these challenges,
the section produced nearly 100 required reports and responded to nearly 1,000 taskings from
Washington in the past 12 months. Many taskings were informal, transmitted via email to the
front office, and did not consider the mission’s resource constraints or the ability of local
governments to respond. Other taskings were transmitted directly to section heads rather than the
front office. Some embassy staff members believe that the burden of mandated reports and
taskings eliminates the opportunity to do analytical reporting. The OIG team believes improved
management of reporting by the embassy and the Department could solve the problem. The OIG
team plans to discuss this issue with the Bureau of Western Hemisphere Affairs.

Recommendation 6: The Bureau of Western Hemisphere Affairs should prioritize taskings to
Embassy Bridgetown and send them directly to the front office by telegram or record email.
(Action: WHA)

        Interagency representatives were frank with the inspectors in criticizing embassy
reporting, citing its focus on internal political developments while providing little on broader
policy priorities, including economic issues and the rule of law. The newly arrived head of the
political/economic section developed a reporting plan keyed to the joint State/U.S. Agency for
International Development (USAID) regional strategy, along with a travel plan and a
representational plan. They are well-structured documents, and, as a result, the section has
already produced several useful analytical cables. The section chief also instituted a weekly
summary of information sent by record email to the interagency community in Washington. The
OIG team made informal suggestions to further improve reporting.

        Embassy Bridgetown has a partnership agreement with the Department of Commerce
office in Santo Domingo to promote U.S. exports in the Eastern Caribbean. The LE economic-
commercial specialist is in frequent communication with her Santo Domingo counterpart, and
they generated a useful training opportunity for her and the economic-commercial officer. A
major focus is the establishment of an American Chamber of Commerce in Barbados. Although
the Department’s Office of Commercial and Business Affairs, which covers embassies lacking a
Commerce Department representative, has provided funding for discrete projects, it has not
provided strategic direction nor established performance goals.

Law Enforcement

        The international narcotics and law enforcement section reopened in 2011. The
international narcotics and law enforcement director sits on the country team and the law
enforcement working group, managing a staff of two eligible family members and one LE staff
member. In FY 2013 they administered 38 projects. Funding dropped from a peak of more than
$11 million in FY 2010 to approximately $2 million in FY 2013. Law enforcement agencies at
the embassy spoke highly of the director’s can-do attitude in helping to address their operational

                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


needs within the Caribbean Basin Security Initiative framework. The OIG team heard from a
variety of sources that the relationship between the Ambassador and the director was problematic
in the past but has improved in recent months.

        Embassy Bridgetown has a robust law enforcement presence and a 14-member law
enforcement working group that meets weekly and is chaired by the Ambassador. Although this
is an unusual frequency and chairmanship, members universally praised the quality of the
group’s exchanges and the Ambassador’s demonstrated interest and support. Some participants
consider sharing the same information in the weekly country team meeting, which is held the
following day, to be duplicative. In addition, no agenda or papers are circulated in advance, and
no one keeps notes of the meeting, although participants regularly make operational decisions
there.

       Informal Recommendation 2: Embassy Bridgetown should schedule the law
       enforcement working group after the country team meeting and consider a biweekly
       schedule.

       Informal Recommendation 3: Embassy Bridgetown should assign a secretariat role for
       the law enforcement working group to the international narcotics and law enforcement
       section, to maintain appropriate agendas, documents, and records.

Leahy Vetting

        Leahy vetting to prevent human-rights violators from receiving security assistance works
well, and the embassy receives clearances on a timely basis. Washington interviewees identified
interagency cooperation on Leahy vetting and the suspension of security assistance in St. Lucia
as a model. The OIG team made informal suggestions to fine-tune their procedures.

Public Diplomacy

        Embassy Bridgetown’s strategic planning documents reference public diplomacy in
general terms. The Integrated Country Strategy notes that the embassy views public diplomacy
“as inherent in all of our priorities… rather than as a free-standing objective.” The Mission
Resource Request’s only mention of public diplomacy is in the resource tables. A public
diplomacy implementation plan, in draft during the inspection, identifies in general terms the
mission objectives that the public affairs section will support. Although the Department does not
mandate a separate public diplomacy goal in embassy planning, Embassy Bridgetown’s
generalized approach makes public diplomacy planning, assessment, and resource prioritization
challenging. It also fails to take into account some activities that the embassy considers
important, such as the Fulbright Program, cultural outreach, and activities in support of Black
History Month, as well as other priority themes. The OIG team worked with the public affairs
officer to rethink the public diplomacy implementation plan as a more useful and specific
planning tool.

         Resource constraints present the single biggest challenge to public diplomacy. The
embassy is accredited to more island nations than the number of staff who work in the public
affairs section (PAS). This chronic situation has been aggravated by staff turnover and the
Department’s “one for two” replacement hiring policy. With two senior LE positions vacant, the
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


junior staff performs tasks beyond their experience level, to the detriment of their primary
responsibilities. The director of the Information Resource Center has taken on educational
advising and exchange program duties, limiting her ability to do electronic outreach and other
work for the center. Inter-island travel is costly and sometimes unreliable, further complicating
the public diplomacy agenda.

       Given the chronic challenges of resources, travel, and short staffing, section morale is
reasonably good. Communication between the American officers and LE staff is fluid, and the
employees collaborate effectively. The public affairs officer and her deputy, both newly arrived,
have established an effective partnership and a spirit of collaboration with the local staff. The
OIG team observed a public event organized by the section that was executed flawlessly and
drew a substantial audience of interested professionals.

Press and Information

        The embassy does not have a plan in place to meet regularly with journalists as a form of
policy advocacy. A mission media policy remained in draft at the time of the inspection. The
public affairs officer serves as embassy spokesperson, and media coverage of embassy events
and activities is typically good. Implementing a plan will increase the mission’s effectiveness.

Recommendation 7: Embassy Bridgetown should finalize and issue its mission media policy,
including an outreach plan for policy advocacy. (Action: Embassy Bridgetown)

Social Media

        The embassy does not have a social media working group. Given the number of islands to
which the Ambassador is accredited and the challenges of travel, a robust, well-coordinated
social media presence can be a cost-effective supplement to embassy outreach. The embassy
recently hired a social media assistant but assigned him the duties of the vacant senior LE press
position, which prevented him from developing social media campaigns and posting sufficient
fresh content. In addition, the frequency and quality of social media content varies.

       Informal Recommendation 4: Embassy Bridgetown should establish a social media
       working group to coordinate the mission’s social media activities and increase coverage
       of events and activities.

The embassy’s Facebook page is active and up to date, with 20,000 followers. Twitter usage is
less ingrained in Barbados.

Information Resource Center

         The Information Resource Center is a single room that includes three computer terminals
with Internet access. Members of the public seldom use the center, because it is inside the
embassy and access is difficult, and Internet usage is readily available on the island. In addition,
the center director has assumed exchange program and educational advising duties in the absence
of staff in those areas. Therefore, PAS is doing little electronic outreach to mission contacts on
policy issues. When time permits, the director conducts workshops on how to use the

                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


eLibraryUSA, a service of the Bureau of International Information Programs that provides access
to databases and other online resources.

        It is unlikely that Barbadians will patronize the center. However, the center holds
potential to buttress the embassy’s policy advocacy by systematically providing materials and
information to targeted mission contacts. The OIG team discussed with the public affairs officer
the need to reassess the utility of and need for the center once the staff reaches full complement.

American Corners

        PAS Bridgetown supports two American Corners in Antigua and Dominica. The Antigua
Corner resides in an old, inadequate structure. The Antiguan Government promised space in a
new building, to be ready by 2009; to date, it remains 85-percent ready. Pending resolution of
this issue, PAS has chosen not to request support funds from the Bureau of International
Information Programs. The Dominica Corner offers regular programming related to the United
States, including outreach to children; PAS secured $10,000 in support funds in FY 2012.

Cultural and Exchange Programs

        A vacancy in the senior cultural affairs LE position has complicated administration of the
exchange programs. PAS staff members with other duties and varying levels of experience have
taken on responsibility for the exchanges. The Fulbright and Humphrey Programs are the
primary academic exchanges. A file review indicated that both Caribbean and American grantees
are of acceptable academic caliber. PAS reported productive working relationships with the
Bureau of Educational and Cultural Affairs and partner agencies, such as the Institute of
International Education.

        Approximately 11 candidates travel annually to the United States through the
International Visitor Leadership Program. The DCM chairs the selection committee. Nominees
selected for FY 2014 programs met the Department’s suitability criteria, and the embassy
nominated candidates from several of the islands in its purview.

Public Diplomacy Grants and Section Administration

        In FY 2013, PAS administered approximately $130,000 in grants. A review of the files
turned up no anomalies. Grant files were properly documented and closed out. Other mission
elements have sometimes requested that the American officers in PAS write and act as grants
officer representatives for non-public diplomacy grants. Because the section is short-staffed, and
PAS staff cannot adequately oversee non-public diplomacy grant activity, these requests are
inappropriate.

Consular Affairs

        The consular staff makes an average of 15 trips every year to different islands. The staff
provides routine consular services; visits prisoners; and meets with officials of local government,
police, and hospitals. Visa applicants travel to Barbados from all over the region.


                                       10
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Leadership and Supervision

        A number of LE staff members have more than 30 years’ experience working in the
consular section. Among these veterans are the local supervisors in the nonimmigrant visa,
immigrant visa, American citizens services, and fraud prevention units. The FAST officers in the
section rotate through the four functional units for periods ranging from 4 to 10 months. During
their time in the units, these American officers—some of whom have no consular experience—
serve as unit chiefs and supervise local staff members. FAST officers like this policy, but their
LE colleagues have reservations. LE staff members are constantly training new supervisors,
which they report compromises the smooth running of operations. They describe examples of
inexperienced American officers making uninformed decisions about workflow and policy
without listening to the local staff. The inspection team concluded their concerns were justified.
Each unit has a weekly meeting that the LE staff members and their immediate American
supervisors attend to discuss workflow and processes. However, the consul general and deputy
consul typically do not attend these meetings.

       Informal Recommendation 5: Embassy Bridgetown should require the consul general or
       deputy consul general to provide closer supervision of first- and second-tour officers
       serving as unit chiefs and should attend weekly unit meetings.

        LE staff members report they are not always informed of consular activities. The consul
general holds weekly meetings with the section’s American officers, but he does not invite the
section’s LE staff and the eligible family member to these meetings. The consul general
occasionally calls section meetings for all staff, generally to discuss a discrete topic of wide
interest. Holding regular section meetings would provide opportunities for him to emphasize
long-term goals and objectives and brief the section staff on upcoming events and would give the
LE staff and eligible family member a chance to ask questions and make suggestions.

       Informal Recommendation 6: Embassy Bridgetown should hold regular consular
       section meetings to which all members of the consular staff are invited.

Consular Facilities

         The consular section is located on the first floor of the chancery. While office space is
sufficient for the section’s staff and workload, the office’s horseshoe shape makes it an awkward
fit for consular operations. The offices of the consul general and the deputy consul general are
both at the back of the office, far from the interview windows and the consular cashier’s booth,
making line-of-site supervision of the consular cashier difficult.

Recommendation 8: Embassy Bridgetown should adjust office assignments so that the
accountable consular officer has direct line of site of the consular cashier booth. (Action:
Embassy Bridgetown)

        The consular section’s main waiting room is in the chancery, separated from the consular
office space by a wall that contains a row of 12 interview windows and the cashier’s booth.
There is also a second consular waiting room located in the consular compound access control
building that is available for overflow customers. This overflow waiting room is almost never
used since the embassy implemented the Bureau of Consular Affairs Global Support Strategy
                                        11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


system in April 2013, which eliminates the need for consular staff to collect application fees on
site. This change has reduced the amount of time applicants spend in the consular section, but the
only public restroom available for consular customers is located in this overflow waiting room in
the compound access control building.

        Upon arrival at the embassy, consular customers line up in front of the consular
compound access control building and wait to be security screened. In the area where consular
customers await screening, there is a bank of storage lockers for consular customers to store
personal items they are not allowed to carry into the building, such as cell phones and large bags.
However, the embassy has not fully installed these lockers, so they are not usable. This is an
inconvenience for consular customers, who arrive at the embassy to discover they cannot bring
their personal items into the building and have nowhere to store them. This slows screening of
consular customers as they try to decide what to do with personal items.

       Informal Recommendation 7: Embassy Bridgetown should complete the installation of
       storage lockers outside the consular section compound access control.

        After completing security screening, consular customers proceed across a pedestrian
bridge that connects the consular compound control building to the chancery and main consular
building. This pedestrian bridge is not covered and leaves consular customers exposed to
Bridgetown’s frequent and often unanticipated rain showers. The walkway of the pedestrian
bridge is slick when wet and creates a hazard for consular customers. Embassy Bridgetown has
requested funding to install an awning on the pedestrian bridge.

Recommendation 9: Embassy Bridgetown, in coordination with the Bureau of Overseas
Buildings Operations, should install an awning on the pedestrian bridge that connects the
consular compound access control building to the main consular waiting room. (Action:
Embassy Bridgetown, in coordination with OBO)

       There are no signs on the wall of the chancery informing consular customers which of the
two doors is the entrance to the main consular waiting room. This creates confusion for
customers.

       Informal Recommendation 8: Embassy Bridgetown should install appropriate signs to
       direct consular customers to the entrance to the consular waiting room.

        Customers seeking nonimmigrant visas, immigrant visas, or American citizens services
share the same waiting area. Customers at the interview windows converse with consular officers
through an intercom system that amplifies their voices. Some of these interviews include
discussions of a very personal nature. This lack of privacy can result in embarrassment for
applicants and waiting customers who overhear their conversations. The section has only one
privacy booth.

Recommendation 10: Embassy Bridgetown, in coordination with the Bureau of Consular
Affairs, should implement measures to ensure privacy for consular customers during interviews.
(Action: Embassy Bridgetown, in coordination with CA)


                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


        The counters at the consular interview windows are too high for a person in a wheelchair
to write or provide fingerprints. Consular staff accommodates applicants in wheelchairs by
asking a guard to move the fingerprint scanners to a different position and/or by providing a
clipboard or other moveable surface on which the customer can write. This practice is awkward,
time consuming, and difficult for many elderly consular customers.

Recommendation 11: Embassy Bridgetown should install a lower counter appropriate for
customers in wheelchairs at one of the interview windows. (Action: Embassy Bridgetown)

Consular Automated Equipment

       The automated consular equipment frequently breaks down. Problems include
workstations, passport readers, and flatbed scanners malfunctioning or not working.
Additionally, the consular section has no backup workstations, which results in frequent delays
and poor customer service.

        The two interview windows in the consular section dedicated to American citizens
services do not have consular workstations. Staff members using these windows have to walk
back to their desks in the rear of the office to access the American citizens services automated
system. This procedure is inefficient and creates delays for customers. Having workstations in all
interview windows has been a standard practice in consular sections for more than a decade. The
Bureau of Consular Affairs provided one additional workstation and printer in September, but
the section needs more. The Bureau of Consular Affairs advised that it would not provide
additional workstations until a refresh visit to the embassy in March 2015.

Recommendation 12: Embassy Bridgetown, in coordination with the Bureau of Consular
Affairs, should install backup workstations and peripheral equipment in the two American
citizens services windows. (Action: Embassy Bridgetown, in coordination with CA)

Supervision of Consular Agencies

         The consular agents in Antigua and Martinique failed to comply with all the requirements
for consular agents. Both have expired appointment commissions. Neither agent responded to a
required questionnaire about fee collection procedures that the Bureau of Consular Affairs sent
to them in June 2013. The consular agent who has served in Martinique since 1993 had not
completed two consular courses required of all consular agents until recently. The consul general
visits the two agencies at least once per year; however, regular meetings via telephone or other
suitable method would provide opportunities to discuss problems, give guidance, and monitor
agents’ activities more closely.

Recommendation 13: Embassy Bridgetown should provide closer supervision of the consular
agencies in Antigua and Martinique. (Action: Embassy Bridgetown)

Consular Agency Antigua

       There is no exterior signage to identify the consular agency in Antigua. The OIG team
observed one consular customer wandering around the atrium adjacent to the office, asking
workers in nearby offices if they knew where he could find the consular agent. No official
                                       13
                           SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED


           portraits of the Secretary of State or consular flag are visible, and the schedule of consular fees is
           not displayed in the waiting room.

                     Informal Recommendation 9: Embassy Bridgetown should setup the consular agency in
                     Antigua appropriately, which includes installing exterior signage, hanging an official
                     portrait of the Secretary of State and a consular flag, and posting the schedule of consular
                     fees.

           The agency’s waiting room is of sufficient size to accommodate consular customers, but seating
           is provided for only five people. On busy days, customers must stand while waiting.

                     Informal Recommendation 10: Embassy Bridgetown should obtain sufficient stackable
                     chairs to accommodate consular customers who visit the U.S. Consular Agency Antigua
                     during peak seasons.
[Redacted] (b) (5)




           Consular Agency Martinique

                   The consular agent in Martinique is ill and has been away from Martinique for 14 out of
           the past 24 months. In FY 2012, the agency was unable to accept its 43 passport applications in a
           timely manner, with some applicants waiting to apply until the consular agent returned to duty.

           Recommendation 15: Embassy Bridgetown, in coordination with the Bureaus of Western
           Hemisphere Affairs and Consular Affairs, should review staffing at the consular agency in
           Martinique and determine whether to replace or supplement the consular agent. (Action:
           Embassy Bridgetown, in coordination with WHA and CA)

                  The consular agent in Martinique does not have an RSA token and thus is unable to use
           the Department’s OpenNet system and email. The consular agent’s inability to use the
           Department’s intranet limits access to key Department information.

           Recommendation 16: Embassy Bridgetown should enable the consular agent in Martinique to
           access the OpenNet system and email. (Action: Embassy Bridgetown)


                                                     14
                                         SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


       Embassy St. George’s

              Embassy St. George’s consular operation is limited to American citizens services. The
       embassy is a one-officer operation. The officer has the title of chargé and has a staff of five LE
       staff members, one of whom is supposed to work in the consular section approximately 50­
       percent of the time.
[Redacted] (b) (5)




                The consular section in Embassy St. George’s, Grenada, lacks key items. No consular
       flag is visible in the consular section, and the schedule of consular fees displayed in the section is
       out of date.

               Informal Recommendation 11: Embassy Bridgetown should require Embassy St.
               George’s, Grenada, to display the consular flag and an up-to-date schedule of consular
               fees.

       Crisis Management Planning

               Consular officers meet with key contacts throughout the embassy’s region during
       consular trips. These meetings help the consular section prepare for disaster and strengthen the
       section’s ability to assist individual U.S. citizens. Consular staff does not make similar visits to
       the two islands on which they have consular agents—Antigua and Martinique. The consular
       section has never asked these consular agents to contribute to the consular section’s crisis
       management planning or to provide lists of key contacts on their islands.

               Informal Recommendation 12: Embassy Bridgetown should require consular agents in
               Antigua and Martinique to develop and submit to the consular section lists of contacts on
               their islands who would play key crisis management roles during a disaster.

                The consular section took part in the embassy’s last crisis management exercise in
       November 2012 and participated in the Bureau of Consular Affairs’ annual hurricane conference
       in summer 2013. However, the consular section has not conducted its own consular exercises or
       drills in the past year to test its ability to communicate with wardens and key contacts throughout
       the islands. The Bureau of Consular Affairs, Office of Consular Crisis Management, encourages
       consular sections to conduct such drills and to keep the office informed about crisis management
       plans. The Office of Consular Crisis Management also expects missions to provide updated risk
       assessments that identify likely outcomes in a natural disaster.




                                               15
                                   SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 18: Embassy Bridgetown should identify key vulnerabilities on the islands in
its consular district and inform the Bureau of Consular Affairs, Office of Consular Crisis
Management. (Action: Embassy Bridgetown, in coordination with CA)

Recommendation 19: Embassy Bridgetown should require Embassy St. George’s, Grenada, to
identify key vulnerabilities on Grenada and inform the Bureau of Consular Affairs, Office of
Consular Crisis Management. (Action: Embassy Bridgetown, in coordination with CA)

Visa Referral Policy

       The consular section told the OIG team that it had processed no visa referral cases for the
past year, but the team identified cases that the section should have processed as referrals. These
include cases in which other sections of the embassy requested assistance from consular staff in
arranging appointments for visa applicants who were traveling to the United States on programs
sponsored by the U.S. Government. All requests for assistance with visa cases by any member of
the U.S. mission staff must be processed as visa referrals, in accordance with 9 FAM, Appendix
K, the Worldwide Visa Referral policy.

Recommendation 20: Embassy Bridgetown should enforce the visa referral policy. (Action:
Embassy Bridgetown)

Consular Management Controls

        The embassy’s Class B cashier does not always provide an OF-158 receipt for consular
fees to the accountable consular officer on a daily basis. Guidance in 7 FAH-1 H-771.2-5
requires receipts for consular fees on a daily basis and not later than the day following the day on
which the fees were deposited with the Class B cashier.

Recommendation 21: Embassy Bridgetown should require the Class B cashier to provide the
accountable consular officer with daily OF-158 receipt. (Action: Embassy Bridgetown)

        Consular managers have been diligent in completing adjudication reviews in a timely
manner; however, the Bureau of Consular Affairs, Consular Integrity Division, reported that
managers failed to review the required proportion of cases. Consular managers were surprised
when inspectors informed them of this and promised to investigate. It is possible that the
proportions are being distorted because officers often have to re-adjudicate visa cases because
the applicants have to resubmit their passports after returning to their home islands after
interviews.

Recommendation 22: Embassy Bridgetown should require consular managers to perform
nonimmigrant visa adjudication reviews in accordance with Department of State regulations.
(Action: Embassy Bridgetown)

       The DCM is not reviewing the nonimmigrant visa adjudications of the consul general
because of functionality problems with the required software. Guidance in 9 FAM 41.113 PN17
requires the DCM to review a portion of the adjudications. He is working with the consular and
information management sections to address those problems.

                                       16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 23: Embassy Bridgetown should provide the deputy chief of mission with
access to the Consular Consolidated Database to perform nonimmigrant visa adjudication
reviews in accordance with Department of State regulations. (Action: Embassy Bridgetown)

        The consular agent in Antigua is not using the automated cash register system to record
and track fees she collects. She says the automated cash register system installed in her office
does not work, and she prefers not to accept fees in cash as a security measure. Instead, she
collects cashier’s checks for fee payment and forwards the checks to Embassy Bridgetown’s
consular section, where the consular cashier enters the checks as payment in Bridgetown’s
automated cash register system. When Bridgetown’s accountable consular officer reconciles
fees, the payments received from the consular agency in Antigua are indistinguishable from fees
collected in Bridgetown. Limiting payment to cashier’s checks imposes an inconvenience on
consular customers, especially in emergencies, and creates problems in reconciliation.

Recommendation 24: Embassy Bridgetown should repair the agency’s automated cash register
system and record all consular fees in the system. (Action: Embassy Bridgetown)

Recommendation 25: Embassy Bridgetown, in coordination with the Bureau of Consular
Affairs, should obtain approval to accept other types of payment for consular services. (Action:
Embassy Bridgetown, in coordination with CA)




                                       17
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
          Agency                 U.S.       U.S. Local-   Foreign    Total   Total Funding
                                Direct-     Hire Staff    National   Staff     FY 2013
                               Hire Staff                  Staff
Department of State
Program                                20            0          11      31      $1,896,300
Representation                                                                     $31,143
ICASS                                   5           14          60      79      $7,742,810
Narcotics Affairs Section               1            2           1       4        $495,176
Marine Security Guards                  6            0           0       6        $210,114
Diplomatic Security                     4            0           5       9        $412,487
Consular                               10            3          15      28      $1,175,348
Public Diplomacy                        2            0           6       8        $581,432
Overseas Buildings                                                              $4,801,021
Operations
Other *                                                                         $5,299,975
Department Sub-total                   48           19          98     165      22,645,806
Department of Defense
ARMY-SOUTHCOM                           2            0           2       4        $185,512
Security Assistance Officers
ARMY-SOUTHCOM,                          1            0           0       1         $10,500
Counter-Drug Teams
ARMY-SOUTHCOM-                          1            0           0       1              $0
Traditional Command
Defense Security                        3                                3        $276,291
Cooperation Agency
PEPFAR                                  0            0           1       1        $115,034
(Military Liaison Office)
Department of Justice
Drug Enforcement                        7            0           1       8        $581,529
Administration
International Criminal                  1            0           0       1      $2,500,000
Investigative Training and
Assistance Program
Federal Bureau of                       3            0           0       3        $330,000
Investigation
Treasury-                               2            1           0       3        $500,000
Internal Revenue Service
Department of Homeland
Security

                                        18
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Coast Guard                               0              0            0         0                 $0
Customs and Border                        4              0            0         4            $52,230
Protection
USAID
PEPFAR                                    0              1            2         3          $708,500
Operating Expenses                        2              0            3         5          $998,000
Development Assistance                    1              0            3         4       $10,933,163
Child Survival & Global                   1              0            4         5        $5,750,318
Health
Centers for Disease                       5              1            7        13          $850,000
Control & Prevention
Other Agencies Subtotal                  33             3            23        59        23,791,077
Totals                                   81            22           121       224       $46,436,883

Note: * Funding for construction of HIV/AIDS laboratory.

Embassy Bridgetown has 48 Department U.S. direct hires and 117 LE staff members, with total
Department funding of $22,645,806. Other agency resources include 33 U.S. direct hires and 26
LE staff members, with total funding of $23,791,077. USAID numbers are shown separately on
the chart and are included in the other agencies’ totals.

Management Overview

        Embassy Bridgetown’s management section is generally well regarded by its customers,
as reflected in OIG team interviews and 2013 International Cooperative Administrative Support
Services (ICASS) and OIG scores. The overall ICASS services score exceeds both the regional
and worldwide average and has improved in each of the last 3 years, but a few areas require
attention. Section morale, professionalism, and cohesiveness are high, and new management
moved quickly to improve service and manage customer expectations in areas of real or
perceived weaknesses. The embassy is appropriately staffed and adequately funded.

         One of the new management team’s greatest challenges will be to reestablish its authority
over management operations and ensure that lines of authority and communication are respected
by others in the embassy. The management office provides the Ambassador and DCM with a
weekly activity report of management operations. The section also provides various levels of
support to the embassy in Grenada and the consular agencies on Antigua and Martinique. The
management section is uncertain as to its support obligations for these three operations, including
facilities maintenance, cashiering, and property control.

       Informal Recommendation 13: Embassy Bridgetown should inventory the management
       support requirements for the embassy in Grenada and the consular agencies on Antigua
       and Martinique and establish a mechanism to meet those requirements.




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Real Property

         The chancery is in a well-maintained, long-term leased facility that was purpose built by
a local contractor for the Department. The Department has a purchase option for the chancery
beginning in 2017. There is an imbalance between available unclassified and controlled-access
workspace due to growth in ICASS and other agency staffing. Some agencies are concerned
about high capital security cost-sharing charges associated with controlled-access area
occupancy and have asked to move into unclassified workspace. Furthermore, management may
have to relocate the warehouse staff into the chancery to meet security requirements for off-site
facilities. These complicated moves, and modifications required in the consular section, require
professional assistance to plan the most efficient use of limited chancery space.

       Informal Recommendation 14: Embassy Bridgetown should request assistance with
       chancery space planning from the Bureau of Overseas Buildings Operations.

       The U.S. Government owns both the Ambassador’s and DCM’s residences, which are
well maintained. The Ambassador’s residence, while suitable for representational purposes, has
no family living quarters, limiting its functionality.

Financial Management

         The direct-hire financial management officer position has been vacant almost 6 months.
It is scheduled to be filled in January 2014, but the Department has not identified a replacement.
Meanwhile, WHA is providing a series of temporary-duty financial management officers. The
section received average to above-average scores on OIG questionnaires and scored higher than
the worldwide average on the FY 2013 ICASS customer satisfaction survey. The new
management officer, himself a financial management specialist, and the temporary financial
management officer are assessing operations to identify areas for improvement.

        The Government of Barbados has been slow at times in reimbursing value-added tax for
official and personal purchases. The embassy and the Office of Foreign Missions have
coordinated approaches to the Government of Barbados to issue reimbursements in a timely
manner.

Cashier’s Advance

       As of April 2013, visa applicants pay fees through a local bank, rather than directly to the
consular section. This change in procedure reduced the cash on hand to support the mission’s
ongoing operations, and the embassy has had to request monthly emergency replenishments from
the Department. Guidance in 4 FAH-2 H-2815 requires that cash on hand be equal to 1 week’s
requirements. Currently, cash on hand equals as few as 3 days’ requirements, and the
management officer estimates that a permanent advance of $125,000 would be adequate to meet
operating needs. The Department, however, has so far declined the embassy’s request to increase
permanently the amount of cash on hand.

Recommendation 26: Embassy Bridgetown, in coordination with the Bureau of the Comptroller
and Global Financial Services, should raise the authorized advance to a level sufficient to sustain
routine operations. (Action: Embassy Bridgetown, in coordination with CGFS)
                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Cashier Security

       The crime rating in Bridgetown is assessed as high [Redacted] (b) (5)

The regional security officer is responsible for arranging adequate security to protect the cashier
during trips to and from the bank. Department regulations state that there must be a formal
written embassy policy covering security protection for the cashier.

       Informal Recommendation 15: Embassy Bridgetown should implement a written policy
       regarding the transportation of cash.

Accommodation Exchange

       The embassy cashier provides accommodation exchange to mission employees.
Department guidelines recommend that employees obtain foreign exchange through regular
commercial banking facilities if adequate local services are available. The management officer
would like to negotiate with a commercial bank to put an automated teller machine at the
embassy. However, should there be a continuing need for accommodation exchange, the
Ambassador is required to revalidate the need and obtain authorization from the Bureau of the
Comptroller and Global Financial Services. Eliminating accommodation exchange could reduce
the amount of the cash increase the embassy needs to maintain daily operations.

       Informal Recommendation 16: Embassy Bridgetown should seek the services of a local
       commercial bank to provide foreign currency exchange or revalidate the need to continue
       accommodation exchange.

Human Resources

        An LE human resources specialist, who reports to the management officer and is a
member of the LE staff executive corps, directs the human resources section. An American
human resources officer from the regional services center in Fort Lauderdale, Florida, provides
overall guidance and direct support to American staff. The inspectors attribute the section’s
below-average scores on inspection and ICASS customer surveys to American employee
preference for an on-site human resources officer. The regional human resources officer visited
the embassy during the inspection, and that officer is building a constructive relationship with
the human resources staff and broader embassy community. The embassy has a robust eligible
family member hiring program.

Locally Employed Staff Supplemental Pension Plan

        The embassy is revising the LE staff supplemental pension plan because of changes in
local labor law. The process has been arduous and time-consuming, and the LE staff is
concerned that they will be disadvantaged under the terms of the new plan. Finalizing the plan,
which covers 2013 to 2016, and paying arrears for the period 2010 to 2013 is a chief of mission
and WHA priority, and management is working closely with the pension plan consultant,
insurance carrier, and the WHA budget office to conclude the effort. In the meantime,
management will need to keep the LE staff fully informed to dispel their concerns.

                                       21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 17: Embassy Bridgetown should hold regular meetings
       between management and the locally employed staff community to discuss the status of
       the pension plan and communicate program details.

Official Residence House Manager

        The Ambassador does not have an official residence expense (ORE) house manager at his
residence and relies on the human resources section to manage the ORE staff of four. As a result,
human resources staff must perform daily operations, such as tracking time and attendance and
ensuring that substitute staff are available when others are absent from work. This is burdensome
and inappropriate, because ORE employees are the personal employees of the Ambassador.
Previous management officers have encouraged the Ambassador to hire a residence manager.
The position exists on the Ambassador’s ORE staffing pattern, and a new-hire could be part
time, if appropriate. Department guidance states it is important that residence staff not
misinterpret the involvement of embassy staff as an indication of an employer-employee
relationship with the mission.

       Informal Recommendation 18: Embassy Bridgetown should facilitate the hiring of an
       official residence expense house manager for the Ambassador’s residence.

Equal Employment Opportunity

        The Ambassador and DCM strongly support and publicize their commitment to Equal
Employment Opportunity (EEO) principles. The Office of Civil Rights reported no recent or
ongoing EEO cases. The embassy has one certified American EEO counselor. Following a
multiyear vacancy, the embassy named an LE EEO liaison in July 2013. The Office of Civil
Rights strongly encourages posts with more than 50 employees to have more than 1 counselor
and at least 1 LE EEO liaison, which would give employees the benefit of choice to discuss
sensitive issues.

       Informal Recommendation 19: Embassy Bridgetown should identify and train one
       additional Equal Employment Opportunity counselor and one locally employed Equal
       Employment Opportunity liaison.

General Services Office

        The general services office is generally well regarded by the embassy community as
reflected in both ICASS and inspection survey questionnaires. Most general services units have
embraced the Integrated Logistics Management System to manage paper flow both within and
outside the section.

Customs and Shipping

        ICASS scores for the customs and shipping function have improved in each of the last 3
years, and the scores exceed both regional and worldwide averages. Shipping files are thorough
and in good order. Long-standing relationships with the foreign ministry and local customs
authorities normally allow for the smooth clearance of incoming shipments. In April 2013,
however, the embassy formally protested unacceptable delays in obtaining clearance of
                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


containers and arbitrary requests by local customs authorities. The Ambassador’s personal
intervention with the foreign minister helped resolve the issue.

Housing

         The housing section has made great strides in upgrading the quality of the housing pool,
working closely with the interagency housing board and the Bureau of Overseas Buildings
Operations to ensure employees receive housing within space and rental targets. All housing,
other than the Ambassador’s and DCM’s residences, is under short-term lease. The housing,
facilities management, and property sections efficiently coordinate residential make-readies so
that most families move directly into their housing on arrival in Bridgetown. Landlords are
largely responsive to requests for maintenance and repair. The facilities section sometimes has to
make minor repairs for the safety and comfort of the occupants, and the housing section will bill
the landlord accordingly.

        The inspectors found the Marine security guard residence and grounds to be shabby and
in considerable need of new paint and other repairs, which are a landlord responsibility. This
property is the exception to an otherwise attractive and well-maintained housing pool.

       Informal Recommendation 20: Embassy Bridgetown should work with the landlord of
       the Marine security guard residence to bring the house up to an acceptable standard.

Motor Pool

        Some officers complained that the motor pool is inadequate, but the inspectors disagree.
Because safe and comfortable taxis are widely available and the distances driven are relatively
small, the mission has only two drivers available for general use by ICASS subscribers to this
service. The Ambassador has two shift drivers in order to keep overtime to a minimum and
comply with the 10-hour workday limitation. The Marine security guards have three shift drivers
and a dedicated van. Program and ICASS vehicle resources meet the needs of the various
sections. All drivers of U.S. Government vehicles are required to complete the Smith System
drivers training program. A member of the regional security office staff is a certified Smith
System trainer.

       For the most part, drivers complete their daily trip logs, but the OIG team counseled the
motor pool supervisor to enforce the no-exception policy. The inspectors also pointed out that
some drivers are not requiring passengers to fasten their seatbelts before proceeding.

       Key control for official vehicles is weak. No dispatcher is present in the driver’s room,
and any driver can go into the key box and take a vehicle without authorization from the GSO
motor pool supervisor.

       Informal Recommendation 21: Embassy Bridgetown should implement controls so that
       no driver can take the keys to a U.S. Government vehicle without authorization.




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Personal Property Management

         The embassy has in place accountability procedures for personal property such as
furniture, equipment, and expendable supplies; however, the property staff has been frustrated by
glitches in the asset management module of the Integrated Logistics Management System. The
staff encounters numerous technical software difficulties that erroneously identify assets as
missing, although they were scanned during the inventory process. The property section could
only reconcile its 2013 inventory by using an internal Excel spreadsheet. This past year, the
embassy was able to consolidate personal property into one warehouse, saving $75,000 per year
in rent. This was due in part to the establishment of an interagency furniture and appliance pool
subscribed to by all agencies, except for Department of Defense elements. Department policy
now dictates that any agency that does not join the furniture pool by FY 2015 will not have
access to the embassy housing pool.

        The warehouse appeared cluttered, due largely to preparations for a disposal sale during
the inspection and restocking of furniture following an unusually large staff turnover. Proper
receiving and bar-coding procedures are in place.

       Inventory records for high-value artworks are incorrect. For example, works donated by
the Foundation for Art and Preservation in Embassies, worth thousands of dollars each, show a
value of one dollar.

       Informal Recommendation 22: Embassy Bridgetown should request proper valuation
       from the Bureau of Overseas Buildings Operations, Office of Residential Design for
       artwork and correct its inventories.

       The embassy in Grenada conducts its own annual inventories and submits them to the
Department. However, the consular agencies in Antigua and Martinique have no record of
inventories. The consular agencies are one-person operations, with only minimal U.S.
Government-owned furniture and equipment. Nonetheless, 14 FAM 414 requires that inventories
be maintained on all personal property.

Recommendation 27: Embassy Bridgetown should conduct annual inventories of the consular
agencies in Antigua and Martinique. (Action: Embassy Bridgetown)

Procurement and Contract Management/Trafficking-in-Persons Monitoring

        The procurement and contracting section operates in a virtually paperless environment
and adheres closely to Foreign Acquisition Regulations and purchase card program policies. The
new management and general services officers have identified the need to establish bulk
purchase agreements to streamline further the procurement function. The procurement staff takes
advantage of just-in-time shipping and uses the purchase card whenever possible, because the
embassy is in close proximity to the U.S. Despatch Agency in Miami and has access to a
Diplomatic Post Office. Contracts include appropriate language regarding U.S. policy on
trafficking in persons, and the contracting officers and procurement staff monitors contractors for
violations.


                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Travel

       The embassy does not have a travel unit, but a contract travel agency located in the
chancery does reservations and ticketing. The embassy requires that all travel authorizations and
vouchering be processed and approved through the e2 Solutions travel management system. A
number of employees dislike e2 and try to avoid using it, but the management section has been
steadfast in requiring that employees use the Department-mandated system, except in case of
emergency.

        Mission policy has required that the Ambassador approve all Department employees’
official regional travel in advance. The inspectors found that this requirement added an
unnecessary step to the already cumbersome travel authorization process and undermined the
authority of agency and Department section heads. During the OIG inspection, the Ambassador
delegated approval of official travel.

         Mission policy authorizes the Ambassador and DCM to travel officially using the lowest
unrestricted fare as the cost basis, while requiring all other employees to use less flexible
restricted fares.

         Informal Recommendation 23: Embassy Bridgetown should establish a uniform policy
         on official airfares for all employees.

Cafeteria

        The general services office has a licensing agreement with a local company to provide
food service at the embassy snack bar. Complaints about the contractor were a recurring theme
during the inspection, and the inspectors witnessed the snack bar running out of food half way
through the lunch period. The new management officer and general services officer have had
several discussions with the contractor recently. If service does not improve, they will launch a
search for another licensee.

Facilities Management

        Bridgetown’s ICASS customer satisfaction survey scores for 2013 exceed both the
regional and worldwide averages for both residential and nonresidential building operations and
maintenance. Inspection survey results indicate satisfaction in line with Department norms. The
relative responsiveness of the landlords of the embassy’s many short-term leased residences
enables the maintenance staff, led by one American officer, to devote its attention to the
chancery and the Ambassador’s and DCM’s residences.

        The maintenance staff is organized into individual teams dedicated to preventive
maintenance, the chancery, and residential properties on the south and north of the island.
Maintenance supply stocks are kept to a minimum due to readily available supplies locally and
the proximity to the United States. The embassy has a memorandum of understanding with the
embassy in Grenada to provide it with facilities support and advice. The facilities manager
reports sufficient funding is available for his program.


                                       25
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         A Bureau of Overseas Buildings Operations project to install a wind turbine at the
chancery to generate electricity is progressing, but the contractor has been slow to obtain the
necessary approvals from local zoning authorities. Once operational, the embassy should realize
utility savings of $1,200 per month.

         The eServices work order system indicates there are several thousand outstanding work
orders due to errors by the maintenance technicians when closing the work order file. The
facilities manager is working with the Department to correct the problem without having to
access each work order.

Safety, Health, and Environmental Management

        The facilities manager is the post occupational, safety, and health officer. The
maintenance staff is well equipped with all essential safety gear, including an infrared imager,
which enables the trained technician to identify dangerous electrical hot spots behind walls. The
July 2013 safety, health, and environmental management report identified five Priority 1 issues
requiring corrective action. Three issues have been corrected, and the facilities team is
addressing the remaining two.

         Due to a recent downsizing from two warehouses to one and lack of funding to have the
junk hauled away during the Government shutdown, the maintenance workshop at the warehouse
is disorganized and stacked with piles of obsolete maintenance parts, supplies, and equipment
awaiting disposal. This situation creates a safety hazard for those working in the warehouse. The
facilities manager is fully aware of the situation, and plans are in place to rectify the situation as
soon as funding is available.

       Informal Recommendation 24: Embassy Bridgetown should clear out the maintenance
       workshops at the warehouse and restore them to functional space.

Information Management

        Embassy Bridgetown’s information management section adequately meets the mission’s
communication and information technology needs. The information management officer has
established a team-oriented work environment and assumed a hands-on role, leading his staff by
example. Staffing has historically been a challenge in Barbados. The recent arrival of an
information systems officer has established much-needed continuity.

        The OIG team identified several areas that require attention, including helpdesk
operations, contingency planning, dedicated Internet networks, port security, laptop
management, and SharePoint administration. The OIG team counseled management on several
areas, including updating position descriptions, system administrator cross training, and internal
controls.

Information Systems Center

        The information systems center manages a helpdesk operation that lacks a single point of
contact to interface with customers and manage service requests. Currently, customers submit
service requests either through the online e-Services system or by contacting the information
                                        26
                            SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED


             systems center staff directly. There is no standard operating procedure for handling service
             requests, which are coordinated on an ad hoc basis. As a result, e-Service requests are sometimes
             not handled in a timely manner, and the helpdesk is vulnerable to service disruptions.

                    Management acknowledges the issue and has begun developing standard operating
             procedures. The OIG team suggested that management designate one of the newly hired eligible
             family member positions as a helpdesk coordinator to manage service requests and act as the
             primary interface with the mission’s users.

             Recommendation 28: Embassy Bridgetown should establish a helpdesk coordinator position in
             the information systems center. (Action: Embassy Bridgetown)

[Redacted] (b) (5)




                                                    27
                                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

 [Redacted] (b) (5)




Network Operations
       [Redacted] (b) (5)
                                                A recent change to the service provider’s rate
plans allowed for management to renegotiate their existing contract with the provider, resulting
in an annual cost savings of approximately $45,000.

       A separate leased line connects the mission’s warehouse to OpenNet. [Redacted] (b) (5)

                                        The connection would eliminate the need to lease a
separate Internet line, thereby saving the mission $12,000 annually. The equipment necessary to
make the connection is on site awaiting installation.

       [Redacted] (b) (5)



Regional Computer Security Officer Review

        A regional computer security officer visited the mission in May 2013 and found a number
of deficiencies in information security. Information management staff has taken steps to mitigate
some deficiencies outlined in the draft report with respect to competing priorities. The inspectors
confirmed that a number of the conditions identified in the report still exist, [Redacted] (b) (5)



       Informal Recommendation 28: Embassy Bridgetown should address the findings in the
       draft report from the regional computer security officer.

Laptop Program

        A review of the mission’s laptop program revealed poor internal controls. The mission
was auctioning off several laptops simply because the encryption keys were lost. Section
management acknowledges the need to establish internal controls for the mission’s laptop
inventory. During the course of the inspection, the information systems officer was in the process
of drafting a management notice to address the issue.

SharePoint Site

        Administration of the mission's SharePoint site has been a challenge, and the OIG team
flagged its management as an area of improvement. The SharePoint site’s main homepage is not
organized in a way that allows users to navigate easily. The OIG team found that a number of
links did not work. Loose internal controls have also been problematic and led to permission
issues with sensitive data stored on the site. The OIG team suggested that management take
advantage of the systems staff’s expertise at Embassy Port of Spain and coordinate an on-site
training program to address the issue.
                                        28
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Recommendation 30: Embassy Bridgetown, in coordination with the Bureau of Western
Hemisphere Affairs and Embassy Port of Spain, should establish a SharePoint training program.
(Action: Embassy Bridgetown, in coordination with WHA and Embassy Port of Spain)




                                      29
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Quality of Life

        Despite beautiful weather and beaches, many Department employees at Embassy
Bridgetown find life on Barbados extremely confining and isolated. Travel to the United States
or to other locales in the region is expensive. As a result, employees receive one rest and
recuperation trip for a 2-year tour and two trips during a 3-year tour. The rest and recuperation
point in the United States is Miami, Florida. Employees are also authorized a 5-percent post
differential due to the hardship of living on a small island, and a 50-percent cost-of-living
allowance to reflect the high cost of goods and services on an island that imports nearly 100
percent of its consumer products.

        The handful of embassy employees accredited as administrative and technical staff are hit
particularly hard in Barbados. Among other things, while their diplomatic colleagues can import
two vehicles and sell them tax-free after 1 year at post, married administrative staff can import or
purchase locally only one vehicle duty-free and can only sell it tax-free after 3 years at post
(some tours are 2 years). Administrative and technical staff members are not exempt from value-
added tax, an additional financial burden. The embassy has made progress in addressing this
situation and continues to work with the Office of Foreign Missions and Government of
Barbados to find a permanent solution to this inequity.

Health Unit

        The embassy’s health unit serves approximately 135 American employees and family
members, including approximately 60 children. During the inspection, it was staffed with one LE
nurse and a shared administrative assistant. Regional support comes from the regional medical
officer in Caracas, who visited during the inspection.

        The unit received low scores on inspection questionnaires but high scores on the ICASS
survey taken earlier in the year. In the interim, two family member nurses and the administrative
assistant departed, and the embassy had to rely for service on a succession of rotating regional
medical officers. The LE nurse has worked long hours to keep the health unit operational. The
large number of newcomers in the fall arrived to find a health unit operating at one-quarter of its
normal staffing level.

         The embassy requested a direct-hire Foreign Service health practitioner position in its
most recent Mission Resource Request, but WHA and the Office of Medical Services have stated
they have higher regional priorities elsewhere. The regional medical officer is making a
concerted effort to ensure that Bridgetown gets the service it deserves. He is working to identify
a local physician who will work part time in the unit and an additional local nurse. He held a
town hall meeting with all American staff and dependents to assuage their concerns. The new
management officer has deemed restoring health services to previous levels as one of his highest
priorities.

Community Liaison Office

        Two half-time coordinators and a part-time newsletter editor staff the community liaison
office (CLO). The coordinators provide the full range of community services and organize nearly

                                       30
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


weekly events to attract and build morale among the various segments of the official community.
They also periodically cosponsor events with the Foreign Service national association. The
coordinators plan to delineate duties more formally when the recently hired co-CLO coordinator
has had formal training in early 2014. As there is no employee association to provide funding for
community events, the coordinators have found creative ways to raise funds within the
guidelines established by the Department’s Family Liaison Office. The inspectors found only
one CLO signature was needed to access the CLO bank account, presenting a management
control weakness. The embassy rectified that situation during the inspection, and the CLO
account is now in accordance with guidelines.

Overseas Schools

       Barbados has no Department-sponsored schools. [Redacted] (b) (5), [Redacted] (b) (6)

programs have been deemed adequate by the Office of Overseas Schools. The secondary
programs are deemed inadequate due to class size and limited educational programs. An away-
from-post education allowance is available to employees for grades K-12.
       [Redacted] (b) (5), [Redacted] (b) (6)
                                                                                      . The
Office of Overseas Schools has offered limited in-kind support to the school, and the Bureau of
Diplomatic Security has provided Soft Target support. The embassy is working with school
officials to establish a board position for an embassy representative.




                                         31
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Management Controls

      The Ambassador’s 2013 management control statement of assurance identified no major
management control weaknesses at Embassy Bridgetown. The OIG team found no material
weaknesses but identified some internal control weaknesses that require attention.

Disposition of Government-Owned Vehicles

        The process whereby the mission exchanges used official vehicles for new vehicles is
flawed and at risk for waste or wrongful acts. The Government of Barbados permits diplomatic
missions and personnel to sell vehicles purchased locally or imported duty-free after 1 year,
without repayment of the duty. Duty on vehicles is extremely high, so it is not uncommon to sell
a used vehicle after a few years for more than the duty-free purchase price. The embassy has
taken advantage of this opportunity by exchanging used vehicles for new ones with vehicle
dealers in Bridgetown, at no cost to the U.S. Government. However, the dealer is the sole
beneficiary of any profit made from resale. The mission is not selling official vehicles on a
competitive basis as replacement property, in accordance with 14 FAM 439.1b.

Recommendation 31: Embassy Bridgetown should sell used vehicles in accordance with
Department guidelines to ensure maximum proceeds from sales for the U.S. Government.
(Action: Embassy Bridgetown)

       The motor pool supervisor, who is not an authorized contracting officer, is handling the
exchange transaction. The exchange is actually a procurement action to obtain a new vehicle. Per
14 FAH-2 H-131, only a person who is formally designated as a contracting officer can solicit
proposals and negotiate, award, and change contracts on behalf of the U.S. Government.

Recommendation 32: Embassy Bridgetown should place responsibility for the procurement of
official vehicles in the procurement and contracting section. (Action: Embassy Bridgetown)

Gasoline Purchase Process

        The embassy does not have in place proper separation of duties between the receiving
and payment functions related to official gasoline purchases. The motor pool supervisor collects
receipts from the drivers and verifies the monthly invoice, which he sends to the finance office
for payment. Per 4 FAH-3 H-413.5, receiving goods and services should be separated from
examining invoices to ensure prudent internal controls. Lack of separation of duties increases the
risk of error, waste, and wrongful acts.

Recommendation 33: Embassy Bridgetown should conduct a thorough review of the
procurement, receipt, and payment processes for official gasoline purchases and bring them into
compliance with applicable regulations. (Action: Embassy Bridgetown)

iPad Technology

      Embassy Bridgetown has purchased a number of iPads to meet operational requirements.
Although the Department continues to create mobile computing solutions, the mission has lagged

                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


in establishing appropriate management controls for the devices. The OIG team briefed the IT
staff on the importance of implementing controls for the devices and provided a management
memorandum to the staff to address the use and support of these devices. Lack of formal
guidelines governing the use of these devices is a management controls weakness.

       Informal Recommendation 29: Embassy Bridgetown should establish appropriate
       management controls for allocation and use of iPads.

Time and Attendance

        The OIG team found one instance of an employee who certifies her own time and
attendance to the embassy’s primary timekeeper for entry into the Department’s payroll system
and also certifies her spouse’s time and attendance information. These practices do not comply
with guidance in 4 FAH-3 H-520, which states that no timekeeper should report their own time
and attendance, and 4 FAH-3 H-523.1, which establishes guidelines for separation of duties in
the time and attendance process. Lack of separation of duties increases the risk of error and
wrongful acts.

Recommendation 34: Embassy Bridgetown should take corrective action to ensure that
timekeepers do not certify their own time and attendance data and that separation of duties in the
time-keeping function meets Department of State guidelines. (Action: Embassy Bridgetown)




                                       33
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



List of Recommendations
Recommendation 1: Embassy Bridgetown should take administrative action, including formal
counseling for the front office staff member, to address the problems arising from favoritism.
(Action: Embassy Bridgetown)

Recommendation 2: Embassy Bridgetown should conduct a review of executive office
procedures and front office staff work requirements and responsibilities, use the results to realign
duties in the front office, and communicate that realignment to the embassy community. (Action:
Embassy Bridgetown)

Recommendation 3: Embassy Bridgetown should assess the skill level of the Ambassador’s
front office staff member and provide training as needed. (Action: Embassy Bridgetown)

Recommendation 4: The Bureau of Western Hemisphere Affairs should send a senior official
to Embassy Bridgetown to assess progress by the Ambassador and deputy chief of mission in
resolving leadership shortcomings. (Action: WHA)

Recommendation 5: The Bureau of Western Hemisphere Affairs should prepare an employee
evaluation report for the Embassy Bridgetown Ambassador. (Action: WHA).

Recommendation 6: The Bureau of Western Hemisphere Affairs should prioritize taskings to
Embassy Bridgetown and send them directly to the front office by telegram or record email.
(Action: WHA)

Recommendation 7: Embassy Bridgetown should finalize and issue its mission media policy,
including an outreach plan for policy advocacy. (Action: Embassy Bridgetown)

Recommendation 8: Embassy Bridgetown should adjust office assignments so that the
accountable consular officer has direct line of site of the consular cashier booth. (Action:
Embassy Bridgetown)

Recommendation 9: Embassy Bridgetown, in coordination with the Bureau of Overseas
Buildings Operations, should install an awning on the pedestrian bridge that connects the
consular compound access control building to the main consular waiting room. (Action:
Embassy Bridgetown, in coordination with OBO)

Recommendation 10: Embassy Bridgetown, in coordination with the Bureau of Consular
Affairs, should implement measures to ensure privacy for consular customers during interviews.
(Action: Embassy Bridgetown, in coordination with CA)

Recommendation 11: Embassy Bridgetown should install a lower counter appropriate for
customers in wheelchairs at one of the interview windows. (Action: Embassy Bridgetown)

Recommendation 12: Embassy Bridgetown, in coordination with the Bureau of Consular
Affairs, should install backup workstations and peripheral equipment in the two American
citizens services windows. (Action: Embassy Bridgetown, in coordination with CA)


                                       34
                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


        Recommendation 13: Embassy Bridgetown should provide closer supervision of the consular
        agencies in Antigua and Martinique. (Action: Embassy Bridgetown)
[Redacted] (b) (5)




        Recommendation 15: Embassy Bridgetown, in coordination with the Bureaus of Western
        Hemisphere Affairs and Consular Affairs, should review staffing at the consular agency in
        Martinique and determine whether to replace or supplement the consular agent. (Action:
        Embassy Bridgetown, in coordination with WHA and CA)

        Recommendation 16: Embassy Bridgetown should enable the consular agent in Martinique to
        access the OpenNet system and email. (Action: Embassy Bridgetown)
[Redacted] (b) (5)




        Recommendation 18: Embassy Bridgetown should identify key vulnerabilities on the islands
        in its consular district and inform the Bureau of Consular Affairs, Office of Consular Crisis
        Management. (Action: Embassy Bridgetown, in coordination with CA)

        Recommendation 19: Embassy Bridgetown should require Embassy St. George’s, Grenada, to
        identify key vulnerabilities on Grenada and inform the Bureau of Consular Affairs, Office of
        Consular Crisis Management. (Action: Embassy Bridgetown, in coordination with CA)

        Recommendation 20: Embassy Bridgetown should enforce the visa referral policy. (Action:
        Embassy Bridgetown)

        Recommendation 21: Embassy Bridgetown should require the Class B cashier to provide the
        accountable consular officer with daily OF-158 receipt. (Action: Embassy Bridgetown)

        Recommendation 22: Embassy Bridgetown should require consular managers to perform
        nonimmigrant visa adjudication reviews in accordance with Department of State regulations.
        (Action: Embassy Bridgetown)

        Recommendation 23: Embassy Bridgetown should provide the deputy chief of mission with
        access to the Consular Consolidated Database to perform nonimmigrant visa adjudication
        reviews in accordance with Department of State regulations. (Action: Embassy Bridgetown)

        Recommendation 24: Embassy Bridgetown should repair the agency’s automated cash
        register system and record all consular fees in the system. (Action: Embassy Bridgetown)

        Recommendation 25: Embassy Bridgetown, in coordination with the Bureau of Consular
        Affairs, should obtain approval to accept other types of payment for consular services. (Action:
        Embassy Bridgetown, in coordination with CA)


                                               35
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


      Recommendation 26: Embassy Bridgetown, in coordination with the Bureau of the
      Comptroller and Global Financial Services, should raise the authorized advance to a level
      sufficient to sustain routine operations. (Action: Embassy Bridgetown, in coordination with
      CGFS)

      Recommendation 27: Embassy Bridgetown should conduct annual inventories of the consular
      agencies in Antigua and Martinique. (Action: Embassy Bridgetown)

      Recommendation 28: Embassy Bridgetown should establish a helpdesk coordinator position
      in the information systems center. (Action: Embassy Bridgetown)
[Redacted] (b) (5)




      Recommendation 30: Embassy Bridgetown, in coordination with the Bureau of Western
      Hemisphere Affairs and Embassy Port of Spain, should establish a SharePoint training program.
      (Action: Embassy Bridgetown, in coordination with WHA and Embassy Port of Spain)

      Recommendation 31: Embassy Bridgetown should sell used vehicles in accordance with
      Department guidelines to ensure maximum proceeds from sales for the U.S. Government.
      (Action: Embassy Bridgetown)

      Recommendation 32: Embassy Bridgetown should place responsibility for the procurement of
      official vehicles in the procurement and contracting section. (Action: Embassy Bridgetown)

      Recommendation 33: Embassy Bridgetown should conduct a thorough review of the
      procurement, receipt, and payment processes for official gasoline purchases and bring them into
      compliance with applicable regulations. (Action: Embassy Bridgetown)

      Recommendation 34: Embassy Bridgetown should take corrective action to ensure that
      timekeepers do not certify their own time and attendance data and that separation of duties in the
      time-keeping function meets Department of State guidelines. (Action: Embassy Bridgetown)




                                             36
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Bridgetown should integrate the use of the Contact
Management Database throughout the mission. (Action: Embassy Bridgetown)

Informal Recommendation 2: Embassy Bridgetown should schedule the law enforcement
working group after the country team meeting and consider a biweekly schedule.

Informal Recommendation 3: Embassy Bridgetown should assign a secretariat role for the law
enforcement working group to the international narcotics and law enforcement section, to
maintain appropriate agendas, documents, and records.

Informal Recommendation 4: Embassy Bridgetown should establish a social media working
group to coordinate the mission’s social media activities and increase coverage of events and
activities.

Informal Recommendation 5: Embassy Bridgetown should require the consul general or
deputy consul general to provide closer supervision of first- and second-tour officers serving as
unit chiefs and should attend weekly unit meetings.

Informal Recommendation 6: Embassy Bridgetown should hold regular consular section
meetings to which all members of the consular staff are invited.

Informal Recommendation 7: Embassy Bridgetown should complete the installation of storage
lockers outside the consular section compound access control.

Informal Recommendation 8: Embassy Bridgetown should install appropriate signs to direct
consular customers to the entrance to the consular waiting room.

Informal Recommendation 9: Embassy Bridgetown should setup the consular agency in
Antigua appropriately, to include installing exterior signage, hanging an official portrait of the
Secretary of State and a consular flag, and posting the schedule of consular fees.

The agency’s waiting room is of sufficient size to accommodate consular customers, but seating
is provided for only five people. On busy days, customers must stand while waiting.

Informal Recommendation 10: Embassy Bridgetown should obtain sufficient stackable to
accommodate consular customers who visit the U.S. Consular Agency Antigua during peak
seasons.

Informal Recommendation 11: Embassy Bridgetown should require Embassy St. George’s,
Grenada, to display the consular flag and an up-to-date schedule of consular fees.

                                        37
                            SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


       Informal Recommendation 12: Embassy Bridgetown should require consular agents in
       Antigua and Martinique to develop and submit to the consular section lists of contacts on their
       islands who would play key crisis management roles during a disaster.

       Informal Recommendation 13: Embassy Bridgetown should inventory the management
       support requirements for the embassy in Grenada and the consular agencies on Antigua and
       Martinique and establish a mechanism to meet those requirements.

       Informal Recommendation 14: Embassy Bridgetown should request assistance with chancery
       space planning from the Bureau of Overseas Buildings Operations.

       Informal Recommendation 15: Embassy Bridgetown should implement a written policy
       regarding the transportation of cash.

       Informal Recommendation 16: Embassy Bridgetown should seek the services of a local
       commercial bank to provide foreign currency exchange or revalidate the need to continue
       accommodation exchange.

       Informal Recommendation 17: Embassy Bridgetown should hold regular meetings between
       management and the locally employed staff community to discuss the status of the pension plan
       and communicate program details.

       Informal Recommendation 18: Embassy Bridgetown should facilitate the hiring of an official
       residence expense house manager for the Ambassador’s residence.

       Informal Recommendation 19: Embassy Bridgetown should identify and train one additional
       Equal Employment Opportunity counselor and one locally employed Equal Employment
       Opportunity liaison.

       Informal Recommendation 20: Embassy Bridgetown should work with the landlord of the
       Marine security guard residence to bring the house up to an acceptable standard.

       Informal Recommendation 21: Embassy Bridgetown should implement controls so that no
       driver can take the keys to a U.S. Government vehicle without authorization.

       Informal Recommendation 22: Embassy Bridgetown should request proper valuation from the
       Bureau of Overseas Buildings Operations, Office of Residential Design for artwork and correct
       its inventories.

       Informal Recommendation 23: Embassy Bridgetown should establish a uniform policy on
       official airfares for all employees.

       Informal Recommendation 24: Embassy Bridgetown should clear out the maintenance
       workshops at the warehouse and restore them to functional space.
[Redacted] (b) (5)




                                              38
                                  SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5)




    Informal Recommendation 28: Embassy Bridgetown should address the findings in the draft
    report from the regional computer security officer.

    Informal Recommendation 29: Embassy Bridgetown should establish appropriate
    management controls for allocation and use of iPads.




                                        39
                            SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



Principal Officials
                                                                Name Arrival Date
Ambassador                                            Larry L. Palmer       05/12
Deputy Chief of Mission                       Christopher J. Sandrolini     06/11
Grenada Charge d'Affaires                            Louis J. Crishock
Chiefs of Sections:
 Management                                        Ralph A. Hamilton        09/13
 Consular                                           Mark D. Bysfield        07/12
 Political/Economic                                    Nicholle Manz        08/13
 Public Affairs                                    Yolonda V. Kerney        08/13
 Regional Security                                  Thomas W. Baker         08/12
Other Agencies:
 Department of Defense                       Commander Michael Long         09/11
 U.S. Agency for International Development         Daniel M. Smolka         08/12
 Department of Justice                                Jeffrey Stanley       06/13
 Customs and Border Patrol                             Saurabh Bhatt        07/13
 Drug Enforcement Agency                           Timothy Williams         06/13




                                     40
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CLO              Community liaison office

DCM              Deputy chief of mission

Department       U.S. Department of State

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

LE               Locally employed

OIG              Office of Inspector General

ORE              Official residence expense

PAS              Public affairs section

USAID            United States Agency for International Development

WHA              Bureau of Western Hemisphere Affairs




                            41
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





 SENSITIVE BUT UNCLASSIFIED

